0

BECKER GALLAGHER
Briefs

and

DoNNA
JULIE

Records

A.

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that 1 unbound
and 40 copies of the foregoing Brief in Opposition for
Respondent Transcontinental Gas Pipe Line Company,
LLC m No. 19-42, North Carolina Utilities
Commission v. Federal Energy Regulatory
Commission, were sent via Two Day Service to the
U.S. Supreme Court, and 3 copies were sent via Two
Day Service and e-mail to the following parties listed
below, this 4th day of September, 2019:
Kathleen L. Mazure
Duncan & Allen
1730 Rhode Island Avenue, NW
Suite 700
Washington, DC 20036
(202) 289-8400
klm@duncanallen.com

Counsel for Petitioner
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Respondent
Federal Energy Regulatory Commission

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

J. WOLF, J.D.
KERSHNER, J.D.

Michael J. Thompson
Counsel of Record
Andrew T. Swers
Wright & Talisman, P.C.
1200 G Street, N.W., Suite 600
Washington, D.C. 20005-3802
(202) 393-1200
thompson@wrightlaw.com
swers@wrightlaw.com
Stephen A. Hatridge,
Vice President and
Assistant General Counsel
Nicole M. Turpen,
Managing Attorney
Transcontinental Gas Pipe Line Company, LLC
P.O. Box 1396
Houston, Texas 77251
(713) 215-2000
Stephen.A.Hatridge@Williams.com
Nicole.Turpen@Williams.com
Counsel for Respondent
Transcontinental Gas Pipe Line Company, LLC

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 4, 2019.

Julie . ersbner
Becker allagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

